                  Opportunities Exist for the Employee
              Plans Function to Improve the Timeliness and
                Accuracy of Merit Closure Determination
                                 Letters

                                   August 2005

                       Reference Number: 2005-10-127




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                     DEPARTMENT OF THE TREASURY
                                         WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                           August 25, 2005


      MEMORANDUM FOR COMMISSIONER, TAX EXEMPT AND GOVERNMENT
                     ENTITIES DIVISION


      FROM:                  Pamela J. Gardiner
                             Deputy Inspector General for Audit

      SUBJECT:               Final Audit Report - Opportunities Exist for the Employee Plans
                             Function to Improve the Timeliness and Accuracy of Merit
                             Closure Determination Letters (Audit # 200410013)


      This report presents the results of our review of the process followed in the technical
      screening centers for determination applications closed on merit. The overall objective
      of this review was to determine whether the Employee Plans (EP) function’s
      determination process for merit closures ensured determination letter applications were
      timely and consistently processed in accordance with procedures and provided quality
      service to customers.
      The Tax Exempt and Government Entities (TE/GE) Division EP function is responsible
      for administering provisions of the Internal Revenue Code (I.R.C.) for more than
      700,000 qualified pension plans with approximately 111 million individual participants
      and assets totaling more than $4 trillion. Many employers desire advance assurance
      that the terms of their plans satisfy the requirements of the I.R.C. and will submit an
      application to the Internal Revenue Service (IRS) for a determination letter. EP function
      specialists analyze the applications to determine if the plans are established in a
      manner that meets current laws and are substantially compliant with the I.R.C. and any
      applicable Revenue Procedures. If all issues can be resolved within a limited time,
      usually within 30 calendar days, the application is closed on merit (i.e., a merit closure)
      and the EP function issues a favorable determination letter, which affirms the plan is
      entitled to favorable tax treatment as long as the plan is operated under the terms in the
      determination letter.
      In summary, sufficient research was conducted to assess the qualified status of
      determination applications, but controls were insufficient to manage the significant
      increase in application receipts. EP function management established standard
                                                        2

processes for reviewing determination applications at the technical screening centers.
Specifically, EP function specialists follow a standardized control sheet for performing
research and determining whether plans have been established in compliance with the
I.R.C. If a plan is determined to be in compliance, the specialist prepares a favorable
determination letter using an automated system for generating letters. While these
standardized processes were useful for reviewing applications, the processes need to
be further developed and consistently implemented. For example, there were no
standardized procedures for contacting plan sponsors when additional information was
needed or for resolving applications when a response to a contact was not received.
Instead, the EP function relied upon group managers and local procedures at the
different technical screening centers to determine how often EP function specialists
should contact plan sponsors and how to resolve the applications when no response
was received from plan sponsors. As a result, significant inconsistencies existed in the
processing of applications requiring customer contact.
In addition, the large increase in determination applications received because of the
latest remedial amendment period1 significantly delayed the processing of applications.
As a result, the technical screening centers did not meet timeliness standards for
processing applications. We identified several reasons for this. The EP function did not
have sufficient information to track the processing of determination applications in the
technical screening centers and had not established realistic and achievable timeliness
goals for processing applications using merit closure processes. Moreover, the EP
function’s customer satisfaction surveys did not include a sample of customers with
whom contact was required to resolve the applications. We also concluded
improvements are needed in (1) the procedures for contacting plan sponsors to
increase assurances that the level of service provided to customers is not dependent
upon the technical screening center that processes the application and (2) the process
for monitoring aged applications to make it more consistent with the processing goals of
the EP function.
We found quality assurance reviews have surfaced ongoing problems with the accuracy
of determination letters. For the past 3 fiscal years (Fiscal Years (FY) 2002 through
2004), the EP Quality Assurance function has reported error rates of
17 percent, 22 percent, and 15 percent, respectively, for determination letters issued by
technical screening centers. Because the quality of determination letters has been a
continuing problem, EP function management initiated a peer review process in
FY 2003 that was designed to improve quality. If the peer reviewers identify errors, the
determination letters are returned to the technical specialists for correction. While the
peer review process may have helped reduce the error rate for determination letters in
FY 2004, it has not been effective in reducing the error rate to an acceptable level. We
identified several inconsistencies and potential weaknesses in the peer review process.


1
  The IRS allows plan sponsors time, called the remedial amendment period, to incorporate tax law changes without
a penalty or sanction. The end of the remedial amendment period becomes the deadline for timely filing a
determination letter application on the changes to the plan. The most recent remedial amendment period was
scheduled to end on December 31, 2001, but was extended several times to January 31, 2004.
                                             3

For instance, Determinations program group managers had different standards for
selecting applications to be included in the peer review process as well as different
standards for selecting employees to perform the reviews. In addition, peer review
results for individual groups were not always being tracked and analyzed to improve
error trends.
We recommended the Director, EP, establish a process that will set a more realistic,
achievable timeliness goal for merit closures based on anticipated receipts for the year.
We also recommended the Director, EP Rulings and Agreements, develop monitoring
systems to effectively track merit closures and ensure a screening handbook being
revised includes procedures for contacting plan sponsors when additional information is
needed and for resolving applications when no response is received. In addition, we
recommended the Director, EP Rulings and Agreements, revise processes designed to
improve the quality of determination letters.
Management’s Response: EP management generally agreed with the
recommendations presented. The FY 2005 timeliness goal was modified in the
Business Performance Review report to more realistically reflect current experience and
the goal setting process will be revisited during the development of the FY 2006 Work
Plan. The TE/GE Division will complete the baseline requirements for the Tax Exempt
Determination System Release 2 Business Objects implementation to include reporting
of average cycle time per screening center.
The TE/GE Division believes that including the results of applications that require
customer contact in the performance measure for technical screening of applications
that do not require customer contact will dilute the accuracy of the measure. Instead,
the reporting of cycle time for applications requiring customer contact will be included in
the baseline requirements for TEDS Release 2 Business Objects. We agree with
management’s alternative corrective action.
A Request for Information Services has been submitted to sample merit closures
requiring customer contact as part of the customer survey process. Although TE/GE
Division management does not believe the 30 day Tax Exempt Quality Measurement
System benchmark would be helpful for monitoring screening timeliness because it was
designed to measure the “perfect” merit closure without customer contact, they will
revisit the time frame when the staggered remedial amendment process becomes
effective for individually designed plans. The screening handbook being revised will
include procedures for contacting plan sponsors and converting a case to a
determination review if no response is received to enhance consistency among
screening centers. The Manager, EP Determinations, mandated that all groups perform
a 100 percent peer review of merit closure cases to ensure the accuracy of favorable
determination letters and that group managers gather and share results with specialists.
Management’s complete response to the draft report is included in Appendix IV.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have any questions or
                                          4

Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs), at (202) 622-8500.
              Opportunities Exist for the Employee Plans Function to Improve the
               Timeliness and Accuracy of Merit Closure Determination Letters




                                                  Table of Contents


Background ............................................................................................... Page 1
Sufficient Research Was Conducted to Assess the Qualified Status
of Determination Applications, but Controls Were Insufficient to
Manage a Significant Increase in Application Receipts ............................. Page 3
         Recommendations 1 and 2: ...........................................................Page 14
         Recommendation 3: .......................................................................Page 15

Quality Assurance Reviews Have Surfaced Ongoing Problems
With the Accuracy of Determination Letters .............................................. Page 16
         Recommendation 4: .......................................................................Page 19

Appendix I – Detailed Objective, Scope, and Methodology....................... Page 20
Appendix II – Major Contributors to This Report ....................................... Page 22
Appendix III – Report Distribution List ....................................................... Page 23
Appendix IV – Management’s Response to the Draft Report .................... Page 24
             Opportunities Exist for the Employee Plans Function to Improve the
              Timeliness and Accuracy of Merit Closure Determination Letters

                                    The Tax Exempt and Government Entities (TE/GE)
Background
                                    Division Employee Plans (EP) function is responsible for
                                    administering provisions of the Internal Revenue Code
                                    (I.R.C.) for more than 700,000 qualified pension plans with
                                    approximately 111 million individual participants and assets
                                    totaling more than $4 trillion.
                                    Pension plans must comply with pension laws and
                                    regulations that are highly complex to qualify for favorable
                                    tax-exempt status. Examples of favorable tax treatment for
                                    employers include:
                                           •   The assets and income of the plan are exempt from
                                               Federal taxes.
                                           •   Contributions to and expenses incurred by the plan
                                               are deductible.
                                           •   Participants are not taxed on their benefits until
                                               distributions are received from the plan.
                                    Many employers desire advance assurance that the terms of
                                    their plans satisfy the requirements of the I.R.C. and will
                                    submit an application to the Internal Revenue Service (IRS)
                                    for a determination letter. If plans are established in
                                    accordance with I.R.C. 401(a),1 the EP function issues a
                                    favorable determination letter, which affirms the plan is
                                    entitled to favorable tax treatment as long as the plan is
                                    operated under the terms in the determination letter.
                                    A favorable determination letter may no longer apply if
                                    there is a change in a statute, regulation, or revenue ruling
                                    applicable to pension plans. When this occurs, the plan
                                    must be amended to comply with the new requirements.
                                    The IRS allows plan sponsors time, called the remedial
                                    amendment period, to incorporate tax law changes without a
                                    penalty or sanction. The end of the remedial amendment
                                    period becomes the deadline for timely filing a
                                    determination letter application on the changes to the plan.
                                    The most recent remedial amendment period was scheduled
                                    to end on December 31, 2001, but was extended several
                                    times to January 31, 2004.



                                    1
                                        I.R.C. § 401 (a) (2005).
                                                                                                Page 1
Opportunities Exist for the Employee Plans Function to Improve the
 Timeliness and Accuracy of Merit Closure Determination Letters

                       Determination letter applications are submitted to the
                       Cincinnati Campus2 of the Small Business/Self-Employed
                       Division of the IRS located in Covington, Kentucky. Prior
                       to technical screening, applications are recorded on an
                       inventory control system and sent to the EP function in
                       Cincinnati, Ohio, where EP function specialists sort
                       applications that will require a full-scope review (for the
                       more complex plans) from those that may need only a
                       limited-scope review by a technical screening center (for the
                       lower-risk plans).
                       At the six technical screening centers, EP function
                       specialists review the applications to determine whether
                       they represent a low risk of noncompliance or do not require
                       a full-scope review. Low-risk applications include those
                       received from plan sponsors who have similar plans that
                       were already approved by the EP function.
                       The EP function specialists then analyze the applications to
                       determine if the plans are established in a manner that meets
                       current laws and are substantially compliant with the I.R.C.
                       and any applicable Revenue Procedures. During this
                       process, the EP function specialist can fax or call the plan
                       sponsor representative for additional information. If all
                       issues can be resolved within a limited time, usually within
                       30 calendar days, a favorable determination letter is sent to
                       the plan sponsor and the application is closed on merit (i.e.,
                       a merit closure). If an application requires further review
                       because unresolved or complex issues have been identified,
                       the technical screening centers may reassign it for a more
                       detailed review (i.e., a nonmerit closure). In Fiscal
                       Year (FY) 2004, the EP function closed a total of
                       57,950 applications, which included 39,370 (67.9 percent)
                       merit closings and 18,580 (32.1 percent) nonmerit closings.
                       As shown in Figure 1, for the past 3 fiscal years, a large
                       majority of the determination applications have been closed
                       on merit.




                       2
                        Campuses are the data processing arm of the IRS. The campuses
                       process paper and electronic submissions, correct errors, and forward
                       data to the Computing Centers for analysis and posting to taxpayer
                       accounts.
                                                                                       Page 2
              Opportunities Exist for the Employee Plans Function to Improve the
               Timeliness and Accuracy of Merit Closure Determination Letters

                                     Figure 1: A Comparison of Merit Closings vs. Total Determination
                                                     Closings for FYs 2002 – 2004

                                                  A Comparison of Merit Closings & Total
                                                        Determination Closings

                                       90,000
                                       80,000
                                       70,000
                                       60,000                                           Merit Closings
                                       50,000
                                       40,000                                           Total Determination
                                       30,000                                           Closings
                                       20,000
                                       10,000
                                            0
                                                 FY 2002     FY 2003      FY 2004

                                     Source: EP function determinations Electronic Determination System
                                     (EDS) statistics reports (FYs 2002 – 2004).

                                     This review was performed at the Employee Plans function
                                     determination technical screening centers located in
                                     Cincinnati, Ohio; Baltimore, Maryland; and
                                     El Monte, California, during the period April through
                                     December 2004. The audit was conducted in accordance
                                     with Government Auditing Standards. Detailed information
                                     on our audit objective, scope, and methodology is presented
                                     in Appendix I. Major contributors to the report are listed in
                                     Appendix II.
                                     Based on our review of the process followed in the technical
Sufficient Research Was
                                     screening centers for determination applications closed on
Conducted to Assess the Qualified
                                     merit and EP function Quality Review reports, we
Status of Determination
                                     determined EP function specialists conducted sufficient
Applications, but Controls Were
                                     research to assess whether the applications qualified for
Insufficient to Manage a
                                     tax-exempt status. The EP function Quality Review reports
Significant Increase in
                                     showed that, for FY 2004, 92 percent of the technical
Application Receipts
                                     screening center applications did not require additional
                                     research before they could be closed on merit. The FY 2003
                                     report showed a similar rate of 91 percent. However, the
                                     FY 2004 Quality Review report also showed a 15 percent
                                     error rate for determination letters. Although this error rate
                                     was less than those for the prior 2 fiscal years and EP
                                     function management has taken action to attempt to improve
                                     the quality of determination letters, additional improvements
                                     are needed to ensure favorable determination letters are

                                                                                                    Page 3
Opportunities Exist for the Employee Plans Function to Improve the
 Timeliness and Accuracy of Merit Closure Determination Letters

                       accurately prepared. The latter issue is presented in more
                       detail further in the report.
                       EP function management established standard processes for
                       reviewing determination applications at the technical
                       screening centers. Specifically, EP function specialists in
                       the technical screening centers follow a standardized control
                       sheet for performing research and determining whether
                       plans have been established in compliance with the I.R.C.
                       The control sheet includes:
                           •   A list of alert guidelines to notify specialists of
                               special circumstances that may need to be
                               considered when evaluating an application.
                           •   Core qualification issues, such as prior law
                               compliance, eligibility, allocation or benefit
                               formulas, and vesting schedules that the specialists
                               need to consider before closing applications on
                               merit.
                           •   Recent law changes that could affect whether plans
                               qualify for tax-exempt status.
                       The results of the specialists’ analyses are recorded on the
                       control sheet. This includes the decision whether to close
                       the application on merit or assign it for further research as a
                       nonmerit determination application. The control sheet is
                       also used to explain how the plan met the current or any
                       prior remedial amendment period by requiring the
                       specialists to record the date the plan sponsor amended the
                       plan.
                       If a plan is determined to be in compliance, the specialist
                       prepares a favorable determination letter using an automated
                       system for generating letters. The letters consist of standard
                       paragraphs and selective paragraphs, which have all been
                       programmed into the system. Selective paragraphs are
                       added to address special situations, such as I.R.C. provisions
                       that affect only one type of plan or additional requirements
                       for terminating a plan. Some selective paragraphs are
                       printed in the body of the letter; others are printed as an
                       enclosure to the determination letter. After the specialist
                       prepares the letter on the system, the application is routed to
                       a clerk who mails the determination letter and closes the
                       application on the inventory system.
                                                                                 Page 4
Opportunities Exist for the Employee Plans Function to Improve the
 Timeliness and Accuracy of Merit Closure Determination Letters

                       While these standardized processes were useful for
                       reviewing applications, the processes need to be further
                       developed and consistently implemented. For example,
                       there were no standardized procedures for contacting plan
                       sponsors when additional information was needed or for
                       resolving applications when a response to a contact was not
                       received. Instead, the EP function relied upon group
                       managers and local procedures at the different technical
                       screening centers to determine how often EP function
                       specialists should contact plan sponsors and how to resolve
                       the applications when no responses were received from the
                       plan sponsors. As a result, significant inconsistencies
                       existed in the processing of applications requiring contact
                       with the customers.
                       In addition, the large increase in determination applications
                       received as a result of the latest remedial amendment period
                       significantly delayed the processing of applications. As a
                       result, the technical screening centers did not meet
                       timeliness standards for processing applications.
                       The EP function performance goal for processing
                       applications using merit closure procedures was 75 calendar
                       days in FY 2004. However, the average number of days for
                       processing applications using merit closure procedures was
                       152 days, which is approximately double the business
                       performance goal.
                       As shown in Figure 2, based on EP function FY 2004
                       reports, the majority of determination applications closed on
                       merit took longer than 75 days to process, with almost
                       one-half taking longer than 155 days.




                                                                             Page 5
Opportunities Exist for the Employee Plans Function to Improve the
 Timeliness and Accuracy of Merit Closure Determination Letters

                              Figure 2: Merit Closure FY 2004 Timeliness Results

                                       FY 2004 Merit Closure Timeliness

                                                               Determination letters issued
                                                 16%           within 75 days

                                                               Determination letters issued
                                                               from 76-100 days
                               47%                     14%

                                                               Determination letters issued
                                                               from 101-155 days

                                                 23%           Determination letters issued
                                                               after more than 155 days


                       Source: EP function EDS Closed Case Report.

                       Significant delays in processing determination applications
                       can be a burden on customers. The timeliness becomes
                       more important for those plan sponsors who made changes
                       to ongoing pension plans, such as those who submitted
                       applications during a remedial amendment period. Prompt
                       merit closure determination letters enable plan sponsors to
                       quickly verify the qualified status of their plans and to have
                       the assurance that further corrections are not necessary.
                       We identified several reasons why the EP function was
                       unable to meet the FY 2004 cycle-time standard for
                       processing determination letter applications using merit
                       closure procedures.
                       The remedial amendment period caused a large increase
                       in determination application receipts
                       In years that do not involve a remedial amendment deadline,
                       the EP function expects to receive approximately
                       30,000 determination applications. With a remedial
                       amendment, the EP function expects to receive significantly
                       more. Figure 3 shows the increase in total determination
                       applications received from FY 2001 (the year before the
                       first deadline for the remedial amendment period) to the
                       3 years of the extended remedial amendment period,
                       FYs 2002 to 2004.




                                                                                      Page 6
Opportunities Exist for the Employee Plans Function to Improve the
 Timeliness and Accuracy of Merit Closure Determination Letters

                       Figure 3: EP Function Determination Receipts for FYs 2001 – 2004

                                    Employee Plans Determination Receipts

                           80,000
                           70,000
                           60,000
                           50,000
                           40,000
                           30,000
                           20,000
                           10,000
                               0
                                    FY 2001        FY 2002        FY 2003        FY 2004

                       Source: EP function EDS statistics reports and TE/GE Division
                       Business Performance Review.

                       However, although applications substantially increased,
                       resources devoted to the total Determinations program (both
                       technical screening centers and EP Determinations program
                       groups) did not have a corresponding increase. For
                       example, the EP function used 141 Full-Time Equivalents
                       (FTE)3 to process all the determination applications in
                       FY 2002, 191 FTEs in FY 2003, and 103 in FY 2004. The
                       drop in resources applied to the EP Determinations program
                       in FY 2004 was the result of a decision by EP function
                       management to realign workgroups into separate
                       Determinations and Examinations programs. Prior to
                       FY 2004, Examinations program employees often worked
                       determination applications in addition to examination cases.
                       The FY 2005 EP Work Plan stated that backlogs for
                       processing determination applications using technical
                       screening procedures caused delays for approximately
                       140,000 applications received during FYs 2003 and 2004.
                       Backlogs of applications waiting to be processed in the


                       3
                         Since some employees are assigned to different program areas
                       throughout the fiscal year, time used to process determination
                       applications was converted to FTEs. An FTE represents the amount of
                       time charged to the program by one employee working full time. It is a
                       measure of labor hours in which 1 FTE is equal to 8 hours multiplied by
                       the number of compensable days in a particular fiscal year. For
                       FY 2003, 1 FTE was equal to 2,088 staff hours. For FY 2004, 1 FTE
                       was equal to 2,096 staff hours.
                                                                                       Page 7
Opportunities Exist for the Employee Plans Function to Improve the
 Timeliness and Accuracy of Merit Closure Determination Letters

                       technical screening centers were expected to continue into
                       FY 2005 and eventually decrease to a more stable workload.
                       As of the beginning of FY 2005, there were
                       29,527 determination applications in the EP function’s
                       inventory, including 25,760 that had not yet been assigned
                       to a technical screener for review.
                       The remedial amendment period ending in January 2004
                       was the fourth since the inception of the Employee
                       Retirement Income Security Act of 1974.4 The EP function
                       also had significant increases in determination application
                       receipts as a result of remedial amendment periods in 1978,
                       1986, and 1995. EP function management has recognized
                       the need to address the fluctuating receipt of determination
                       applications for the future. EP function management plans
                       to use a staggered approach to remedial amendment periods
                       beginning in FY 2005 to stabilize the flow of receipts for
                       determination applications.
                       The next section of the report will show that the large
                       increase in application receipts during the remedial
                       amendment period was a significant factor in the increased
                       number of days required to complete technical screening
                       processing.
                       The EP function did not establish realistic and
                       achievable timeliness goals for processing applications
                       using technical screening processes
                       Work Plans in the EP function are developed to assist in
                       guiding the organization toward established goals and
                       objectives. From FYs 2001 through 2004, the EP function
                       business performance goal presented in the Work Plans for
                       merit closures remained at 75 cycle days.5 However, as
                       shown in Figure 4, the actual number of days to close a
                       merit closure steadily increased from 87 cycle days in
                       FY 2001 to 152 cycle days in FY 2004.


                       4
                         Pub. L. No. 93-406, 88 Stat. 829 (codified as amended in scattered
                       sections of 5 U.S.C., 18 U.S.C., 26 U.S.C., 29 U.S.C., and 42 U.S.C.).
                       The Act set uniform minimum standards to assure that employee benefit
                       plans are established and maintained in a fair and financially sound
                       manner.
                       5
                         Cycle days are computed from the application’s postmark date to the
                       closing of the application and issuance of the determination letter.
                                                                                     Page 8
Opportunities Exist for the Employee Plans Function to Improve the
 Timeliness and Accuracy of Merit Closure Determination Letters

                        Figure 4: Merit Closure Business Performance Goals and Results
                                              for FYs 2001 – 2004

                               A Comparison of Merit Closure Cycle Time Goals
                                     and Results for FY 2001 - FY 2004
                         Cycle Days

                            200
                                                                                   152
                            150
                                                                        111
                                           87          97
                            100       75          75             75           75

                             50

                              0
                                      FY 2001     FY 2002       FY 2003       FY 2004

                                                       Goal   Results


                       Source: EP Work Plans for FYs 2001 – 2005.

                       Although the cycle time goals remained constant during the
                       remedial amendment period, the EP function was notifying
                       customers that their determination letters could take much
                       longer. The EP function sends an Acknowledgment Notice
                       (Notice 3336) upon receipt of a determination application to
                       advise plan sponsors that their determination applications
                       were received. EP function management advised us that,
                       prior to April 2000 and before the remedial amendment
                       deadline, the notices included a statement that plan sponsors
                       should normally expect to hear from the EP function within
                       145 calendar days. In addition, the EP Determination Letter
                       Resource Guide on the TE/GE Division web site at the time
                       of our audit instructed plan sponsors to wait at least
                       145 days before contacting the Employee Plans Customer
                       Account Services call site for assistance in verifying the
                       status of their determination letter applications. The actual
                       cycle times during FY 2004 were slightly higher. As
                       indicated in Figure 2 earlier, 47 percent of the merit closures
                       took more than 155 days to process, with the majority
                       taking more than 180 days to process. This meant some
                       plan sponsors had to wait over 6 months for their
                       determination letters.
                       The EP function needs to establish realistic and achievable
                       timeliness goals for processing applications using technical
                       screening processes. By establishing realistic goals, the EP
                       function can more effectively manage workload against the
                       goals. For example, while EP function management had
                                                                                    Page 9
Opportunities Exist for the Employee Plans Function to Improve the
 Timeliness and Accuracy of Merit Closure Determination Letters

                       expected a substantial increase in the receipt of
                       determination applications, the timeliness goal for
                       processing determination applications in the technical
                       screening centers was not adjusted. In addition, EP function
                       management had not developed procedures to update their
                       estimated completion time during periods of high receipts
                       when their original estimates were no longer achievable.
                       Further, the estimates communicated to plan sponsors were
                       not realistic. As a result, plan sponsors may have had an
                       increased burden inquiring about the status of their
                       applications, and the TE/GE Division Customer Account
                       Services call site may have received more inquiries
                       regarding the status of determination applications. The
                       TE/GE Division Customer Account Services call site
                       received 4,559 telephone calls on the status of EP function
                       determination applications in FY 2004.
                       The EP function needs better information for tracking
                       determination applications processed in the technical
                       screening centers
                       EP function management did not have sufficient information
                       to track the processing of determination applications in the
                       technical screening centers. We identified several
                       management information weaknesses that have limited EP
                       function management’s ability to monitor and report
                       business results for technical screening center inventories.
                       Correcting these weaknesses will enable the EP function to
                       better track the timeliness of applications processed by the
                       technical screening centers, evaluate business results, and
                       provide sufficient oversight of all merit closures. These
                       weaknesses include:
                          •   A lack of information to monitor cycle-time
                              information at the individual technical screening
                              centers.
                              The EP function tracks the technical screening
                              centers’ timeliness by measuring the average number
                              of days to process a determination application
                              against the merit closure business performance
                              measure goal. However, this information is shown
                              only for the total applications processed by all six
                              screening centers and is not broken down by the
                              individual screening centers that were established at
                                                                           Page 10
Opportunities Exist for the Employee Plans Function to Improve the
 Timeliness and Accuracy of Merit Closure Determination Letters

                              the beginning of FY 2004. The EP function
                              reorganized workgroups and reassigned more than
                              90 EP Examinations program employees to the EP
                              Rulings and Agreements office in Cincinnati, Ohio.
                              The reassignment caused technical screening
                              applications processed by the technical screening
                              centers outside of Cincinnati to be shown on
                              management information reports as having been
                              processed by the Cincinnati screening center. As a
                              result, EP function management does not have data
                              to show whether the timeliness problems from
                              FY 2004 were occurring across the board in all
                              centers or in just one or two.
                          •   An ineffective process for monitoring technical
                              screening applications that require contact with
                              customers.
                              Before October 2002, merit closure cases requiring
                              customer contact were not easily identifiable on the
                              EP function’s inventory control system. In
                              October 2002, the EP function developed a unique
                              closing code for these types of merit closures.
                              However, the EP function is not fully using the new
                              closing code information to monitor timeliness of
                              merit closures with customer contact. The
                              cycle-time reports currently generated show only
                              those merit closures that did not require customer
                              contact but not the merit closures that required
                              customer contact. The reports for monitoring cases
                              requiring contact with customers are available on the
                              system, but they have to be requested from the
                              Headquarters Office.
                          •   The lack of a process to report business results for
                              technical screening applications that require contact
                              with customers.




                                                                            Page 11
Opportunities Exist for the Employee Plans Function to Improve the
 Timeliness and Accuracy of Merit Closure Determination Letters

                              The EP function does not include merit closures
                              requiring customer contact in its business results.
                              Currently, the business results reported in the EP
                              Work Plan for technical screening applications
                              include only the merit closures that did not require
                              customer contact. In FY 2004, the EP technical
                              screening centers processed 25,592 applications
                              without contacting customers and
                              13,778 applications that required contacting
                              customers.
                              We determined merit closures requiring customer
                              contact took longer than those without customer
                              contact. EP function reports showed the national
                              average cycle times for merit closures with customer
                              contact were 136 days and 166 days for FYs 2003
                              and 2004, respectively. In contrast, the cycle times
                              for merit closures without customer contact were
                              106 days and 152 days for the same periods.
                          •   A lack of customer feedback for technical screening
                              applications that require customer contact.
                              The existing customer satisfaction survey sample is
                              derived from IRS records sent to an independent
                              contractor. However, a Modernization and
                              Information Technology Services (MITS)
                              organization Lead Information Technical Specialist
                              advised us the records sent by the IRS, which are
                              used to send out the customer satisfaction surveys,
                              do not include a sample of merit closures that
                              required contact with the customer. Customer
                              contact may lengthen the processing time of the
                              application and be seen as an increased burden by
                              some of the customers. As a result, the feedback
                              from customers on these types of applications may
                              differ from that of the customers with whom no
                              contact was required to resolve the applications. A
                              representative sample of both types of customers is
                              needed to provide EP function management with
                              more complete feedback from customers.




                                                                            Page 12
Opportunities Exist for the Employee Plans Function to Improve the
 Timeliness and Accuracy of Merit Closure Determination Letters

                       Improvements are needed in the procedures for
                       contacting plans sponsors and the process for
                       monitoring aged cases
                       Technical screeners can fax or call for additional
                       information to resolve issues on the application. However,
                       the EP function did not have a standardized set of written
                       guidelines that are used by all of the technical screening
                       centers on how often to contact the applicants. Instead, the
                       EP function relied upon group managers to determine how
                       many contacts the revenue agents should make and how to
                       resolve the applications when there was no response. As a
                       result, customers may have received different levels of
                       service depending on which technical screening center was
                       assigned the application.
                       For example, one screening center would send a fax to the
                       plan sponsor asking for additional information and then
                       make a telephone call if no response was received. If the
                       information still could not be obtained after the fax and one
                       telephone call, the application would be assigned to an
                       unassigned inventory account. The application would
                       remain in this account for a period not to exceed 25 calendar
                       days before being reassigned to a field Determinations
                       program group that would process it as a nonmerit
                       determination application.
                       It was another technical screening center’s policy to follow
                       up with a second fax if no response was received to the first
                       contact. If no response was received after the second fax,
                       the group manager assigned the application to the technical
                       screener to keep working as a nonmerit determination
                       application, instead of assigning it to the unassigned
                       inventory account.
                       A group manager at a third technical screening center had
                       no set policy and allowed the specialists assigned to
                       technically screen applications to determine how many
                       times to contact plan sponsors.
                       EP function management recognized that inconsistencies
                       existed among technical screening centers and decided to
                       initiate a screening roundtable group in April 2004 to
                       improve consistency. One of the group’s initiatives was to
                       revise an area handbook that was used by specialists

                                                                             Page 13
Opportunities Exist for the Employee Plans Function to Improve the
 Timeliness and Accuracy of Merit Closure Determination Letters

                       working determination applications at the various technical
                       screening centers. The handbook will include a written set
                       of guidelines on how often to contact plan applicants and is
                       designed to help EP function management identify and
                       eliminate inconsistencies in the different technical screening
                       centers’ processes.
                       In addition to identifying insufficient procedures for
                       contacting plan sponsors, we determined the process for
                       monitoring aged applications could be improved. EP
                       function managers were using a weekly inventory listing to
                       identify and follow up on determination applications that
                       had been assigned to a technical screener for more than
                       60 calendar days. However, with the goal for technical
                       screeners set at 30 calendar days, the 60-day over-age
                       indicator may be too high a threshold for managerial
                       follow-up. An over-age indicator that is more consistent
                       with the 30-day goal may help EP function management
                       better monitor over-age applications, especially as inventory
                       levels drop back down to normal in the future.

                       Recommendations

                       1. The Director, EP, should establish a process that will set
                          a more realistic, achievable timeliness goal for merit
                          closures based on anticipated receipts for the year.
                       Management’s Response: The FY 2005 timeliness goal was
                       modified in the Business Performance Review report to
                       more realistically reflect current experience. In addition, EP
                       function management will revisit the goal setting process as
                       part of the development of the FY 2006 Work Plan.
                       2. To effectively track merit closures, the Director, EP
                          Rulings and Agreements, should develop monitoring
                          systems with the ability to:
                          •   Monitor the average cycle time for individual
                              technical screening centers.
                          •   Include the timeliness results of applications
                              requiring customer contact in the EP function
                              performance measure for technical screening.
                          •   Monitor the average cycle time for applications
                              requiring customer contact.
                                                                             Page 14
Opportunities Exist for the Employee Plans Function to Improve the
 Timeliness and Accuracy of Merit Closure Determination Letters

                          •   Include a representative sample of merit closures
                              requiring customer contact in the customer survey to
                              obtain feedback from all customers whose
                              applications were processed using technical
                              screening processes.
                          •   Monitor over-age applications using an indicator that
                              is more consistent with the Tax Exempt Quality
                              Measurement System and customer service
                              guidelines.
                       Management’s Response: The TE/GE Division will
                       complete the baseline requirements for the Tax Exempt
                       Determination System (TEDS) Release 2 Business Objects
                       implementation which will include reporting of average
                       cycle time per screening center.
                       The TE/GE Division believes that including the results of
                       applications that require customer contact in the
                       performance measure for technical screening of applications
                       that do not require customer contact will dilute the accuracy
                       of the measure. Instead, the TE/GE Division will complete
                       the baseline requirements for TEDS Release 2 Business
                       Objects implementation which will include the reporting of
                       cycle time for applications requiring customer contact.
                       A Request for Information Services has been submitted to
                       the MITS organization to sample merit closures requiring
                       customer contact as part of the customer survey process.
                       Although TE/GE Division management does not believe the
                       30 day Tax Exempt Quality Measurement System
                       benchmark would be helpful for monitoring screening
                       timeliness because it was designed to measure the “perfect”
                       merit closure without customer contact, they will revisit the
                       time frame when the staggered remedial amendment process
                       becomes effective for individually designed plans.
                       Office of Audit Comment: We agree with management’s
                       alternative corrective action since the TEDS Release 2
                       Business Objects implementation will include the reporting
                       of cycle time for applications requiring customer contact.
                       3. The Director, EP Rulings and Agreements, should
                          ensure the screening handbook being revised includes
                          procedures for contacting plan sponsors when additional
                          information is needed and for resolving applications
                                                                            Page 15
           Opportunities Exist for the Employee Plans Function to Improve the
            Timeliness and Accuracy of Merit Closure Determination Letters

                                      when no response is received, to enable the EP function
                                      to provide a consistent level of service to customers.
                                  Management’s Response: The screening handbook is
                                  currently being revised to enhance consistency among
                                  screening centers. The handbook will mandate two contacts
                                  with applicants within a specified time frame. In the
                                  absence of unusual circumstances, cases for which no
                                  response is received will be converted to a determination
                                  review and sent to unassigned inventory.
                                  For the past 3 fiscal years (FYs 2002 – 2004), the EP
Quality Assurance Reviews
                                  Quality Assurance function has reported error rates of
Have Surfaced Ongoing
                                  17 percent, 22 percent, and 15 percent, respectively, for
Problems With the Accuracy of
                                  determination letters issued by technical screening centers.
Determination Letters
                                  The errors reported by the EP Quality Assurance function
                                  include:
                                      •    Incorrect or missing dates for proposed or executed
                                           amendments.6 These dates are important because
                                           they help identify the amendments to which the
                                           determination letter applies.
                                      •    Incorrect law ruling caveats,7 omissions of caveats,
                                           and incorrect caveats. These could give plan
                                           sponsors a false sense of assurance if the wrong
                                           caveat was included in the determination letter.
                                           Also, plans have an increased risk of operating out
                                           of compliance with the applicable statutes.
                                  The determination letter is the final product of the
                                  determination application process. Since plan sponsors rely
                                  on these letters to demonstrate that plans qualify for
                                  tax-exempt status, it is important that the letters are
                                  accurate. In addition, many plans are required to pay a fee
                                  to have the EP function evaluate the application and issue a
                                  determination letter, which emphasizes the need for accurate
                                  determination letters. Further, the determination letter

                                  6
                                    Amendments are changes that must be made to plans to maintain their
                                  qualified status.
                                  7
                                    A caveat is a confirmation and explanation of the scope of a favorable
                                  determination letter, indicating that the determination letter is applicable
                                  only for items in the plan that were reviewed by the technical screener.
                                  It also describes items and issues that may put at risk the plan’s
                                  favorable status.
                                                                                                    Page 16
Opportunities Exist for the Employee Plans Function to Improve the
 Timeliness and Accuracy of Merit Closure Determination Letters

                       provides a historical record that can be useful to the EP
                       function for processing future determination requests or
                       when conducting plan examinations.
                       EP function Quality Assurance reports have consistently
                       shown over the past 3 fiscal years that EP function
                       management does not have reasonable assurance the
                       technical screening centers are preparing accurate and
                       correct determination letters. For example, Quality
                       Assurance function recurring issue reports have consistently
                       highlighted specific technical issues where frequent
                       mistakes were made, including incorrect or missing
                       amendment dates, incorrect law ruling caveats, omissions of
                       caveats, and incorrect caveats. Although errors in
                       determination letters identified by the Quality Assurance
                       function are corrected either by the Quality Assurance
                       function or the technical screening centers before they are
                       issued, there may have been other favorable determination
                       letters with similar errors that were not identified because
                       the letters were not quality reviewed.
                       Because the quality of determination letters has been a
                       continuing problem, EP function management initiated a
                       peer review process in FY 2003 that was designed to
                       improve quality. The peer review process is based on the
                       principle that systematic monitoring is the most effective
                       way to attain high-quality determination letters, since it is
                       impractical to have managers review all applications
                       processed in the technical screening centers. Peer reviewers
                       evaluate the quality of the determination letters and, as such,
                       are the primary means to ensure determination letters are
                       accurate. If the peer reviewers identify errors, the
                       determination letters are returned to the technical specialists
                       for correction. After the letters have been peer reviewed,
                       the managers may also select the application for review, but
                       relatively few are reviewed by managers. Clerks then issue
                       the determination letters unless an application is randomly
                       selected by the system for quality review. While the peer
                       review process may have helped reduce the error rate for
                       determination letters in FY 2004, it has not been effective in
                       reducing the error rate to an acceptable level.
                       In most technical screening centers, EP function specialists
                       perform peer reviews of merit closure determination letters

                                                                              Page 17
Opportunities Exist for the Employee Plans Function to Improve the
 Timeliness and Accuracy of Merit Closure Determination Letters

                       prepared by other specialists at their own center. At other
                       technical screening centers, managers review the
                       determination letters themselves instead of using the peer
                       review process. Peer reviewing is a collateral duty in
                       addition to working the individual inventory of applications.
                       While this arrangement may be due to limited resources,
                       one inherent shortcoming is that when technical screeners
                       are peer reviewing determination letters for other
                       employees, they are unable to continue working the
                       determination applications assigned to them. This practice
                       may have contributed to the length of time to work
                       applications.
                       We identified several inconsistencies and potential
                       weaknesses in the peer review process. For example, each
                       Determinations program group manager decides how the
                       reviews will be conducted. As a result, group managers had
                       different standards for selecting applications to be included
                       in the peer review process as well as different standards for
                       selecting employees to perform the reviews. Specifically,
                       some managers peer reviewed 100 percent of the technically
                       screened applications and others reviewed only samples. In
                       addition some managers assigned only senior-level
                       employees to perform the reviews, while others assigned
                       less-experienced employees.
                       Another potential weakness involved not always tracking or
                       analyzing peer review results for individual groups. Such
                       analysis could assist in identifying issues that exist in one
                       group but not another and in determining if error trends are
                       improving over time. For example, two of the technical
                       screening centers were using screening review reports to
                       identify types of errors, the number of cases with errors, and
                       error rates. At two other technical screening centers, peer
                       reviewers or the group managers returned cases to the
                       employees for correction, but the types of errors and error
                       rates were not being tracked. As a result, group managers
                       from the latter two groups could not evaluate whether
                       determination letter quality was improving. Consolidating
                       and analyzing the results of peer reviews is an opportunity
                       for EP function management to identify common mistakes
                       and to address them through additional training or
                       clarification of procedures.

                                                                             Page 18
Opportunities Exist for the Employee Plans Function to Improve the
 Timeliness and Accuracy of Merit Closure Determination Letters

                       Recommendation

                       4. The Director, EP Rulings and Agreements, should revise
                          processes designed to improve the quality of
                          determination letters by:
                          •   Establishing more consistency in the administration
                              of peer reviews.
                          •   Ensuring peer review results for individual groups
                              are tracked and analyzed to identify error trends.
                          •   Addressing any error trends through clarifying
                              procedures or providing education to technical
                              screening analysts.
                       Management’s Response: The Manager, EP
                       Determinations, mandated that all groups perform a
                       100 percent peer review of merit closure cases to ensure the
                       accuracy of the favorable determination letters, and that
                       group managers gather and share results with specialists.
                       The Determinations Quality Assurance Staff (QAS) office
                       will review monthly group statistics and compare the results
                       to Tax Exempt Quality Measurement System trends (which
                       are shared organization-wide). The QAS office will cascade
                       any exceptional findings of this study to all Determinations
                       employees to promote consistency among groups.




                                                                           Page 19
            Opportunities Exist for the Employee Plans Function to Improve the
             Timeliness and Accuracy of Merit Closure Determination Letters

                                                                                     Appendix I


                      Detailed Objective, Scope, and Methodology

The overall objective of the audit was to determine whether the Employee Plans (EP) function
determination process for merit closures ensures determination letter applications are timely and
consistently processed in accordance with procedures and provides quality service to customers.
We did not perform any independent testing to verify the accuracy of the data obtained from the
Tax Exempt and Government Entities (TE/GE) Division management information system
reports.
To accomplish our objective, we:
I.     Determined whether TE/GE Division management had established the necessary
       processes to ensure EP function Determinations program merit closures are timely
       processed.
       A. Reviewed EP Work Plans and the Tax Exempt Quality Measurement System
          (TEQMS) standards to determine whether TE/GE Division management had
          established measurable EP function determination letter program goals for measuring
          the timeliness of merit closures.
       B. Discussed monitoring systems with TE/GE Division management to identify methods
          used for tracking the timeliness of technical screening applications closed on merit.
          We determined whether there were any causes or factors that were inhibiting
          management from monitoring the length of processing time.
       C. Determined how managers identified and monitored applications that had been
          assigned to technical screeners.
       D. Analyzed EP Work Plans and Electronic Determination System reports to determine
          whether the merit closure program is producing the desired results of closing
          applications within 75 calendar days. We determined whether timeliness was
          contingent upon whether the application was closed with contacting the customer or
          without contacting the customer.
       E. Determined whether the goal of closing all merit closure applications (including
          applications requiring customer contact) within 75 calendar days was an achievable,
          realistic goal.
II.    Determined whether the EP function determination process for merit closures ensures
       applications are consistently processed in accordance with procedures and provides
       consistent quality service to customers.



                                                                                          Page 20
    Opportunities Exist for the Employee Plans Function to Improve the
     Timeliness and Accuracy of Merit Closure Determination Letters

A. Analyzed the TEQMS summary reports for Fiscal Years 2002 through 2004 to
   determine whether the EP function determination letter program is producing the
   desired results for the quality of merit closures.
B. Interviewed EP function Determinations program group managers to determine
   whether there were sufficient procedures for contacting plan sponsors.
C. Conducted walk-throughs of merit closure screening activities at three of the
   technical screening centers located in Cincinnati, Ohio; Baltimore, Maryland; and
   El Monte, California; conducted telephone interviews with EP function
   Determinations program group managers in the remaining technical screening centers
   located in Brooklyn, New York; Chicago, Illinois; and Atlanta, Georgia; and obtained
   applicable documentation to determine whether EP function management had
   established standard processes for reviewing determination applications at the
   technical screening centers. We reviewed EP function Quality Assurance reports to
   determine whether the standard processes were adequate for assessing the qualified
   status of determination applications.
D. Determined whether EP function management ensured peer reviews were consistently
   administered and peer review results for individual groups were tracked and analyzed
   to improve error trends.




                                                                                Page 21
           Opportunities Exist for the Employee Plans Function to Improve the
            Timeliness and Accuracy of Merit Closure Determination Letters

                                                                                Appendix II


                           Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs)
Nancy A. Nakamura, Director
James V. Westcott, Audit Manager
Marjorie A. Stephenson, Lead Auditor
Michael A. McGovern, Auditor




                                                                                      Page 22
           Opportunities Exist for the Employee Plans Function to Improve the
            Timeliness and Accuracy of Merit Closure Determination Letters

                                                                             Appendix III


                                Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Tax Exempt and Government Entities Division SE:T
Director, Employee Plans, Tax Exempt and Government Entities Division SE:T:EP
Director, Employee Plans Rulings and Agreements Office, Tax Exempt and Government Entities
Division SE:T:EP:RA
Manager, Employee Plans Determinations Program, Tax Exempt and Government Entities
Division SE:T:EP:RA:D
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Director, Communications and Liaison, Tax Exempt and Government Entities
Division SE:T:CL




                                                                                   Page 23
Opportunities Exist for the Employee Plans Function to Improve the
 Timeliness and Accuracy of Merit Closure Determination Letters

                                                               Appendix IV


         Management’s Response to the Draft Report




                                                                     Page 24
Opportunities Exist for the Employee Plans Function to Improve the
 Timeliness and Accuracy of Merit Closure Determination Letters




                                                                     Page 25
Opportunities Exist for the Employee Plans Function to Improve the
 Timeliness and Accuracy of Merit Closure Determination Letters




                                                                     Page 26
Opportunities Exist for the Employee Plans Function to Improve the
 Timeliness and Accuracy of Merit Closure Determination Letters




                                                                     Page 27
Opportunities Exist for the Employee Plans Function to Improve the
 Timeliness and Accuracy of Merit Closure Determination Letters




                                                                     Page 28
Opportunities Exist for the Employee Plans Function to Improve the
 Timeliness and Accuracy of Merit Closure Determination Letters




                                                                     Page 29
